                                                        Message From the Inspector General




           On behalf of the Office of the Inspector General for the U.S. Department of the Interior
    (DOI), I am pleased to present this summary of results and accomplishments from April 1 through
    September 30, 2004.

            During this reporting period, as part of our ongoing effort to examine law enforcement and
    security at the Department, we performed an assessment of Indian detention facilities operated by
    the Bureau of Indian Affairs (BIA). In what became one of our most prominent assessments, we
    reported on deplorable conditions that exist at many of these facilities. Our report showed that over
    a 3-year period, 11 prisoners died, 236 prisoners attempted suicide, and 631 escaped from jails. The
    BIA, which oversees and funds these jails, was unaware of 98 percent of these incidents due to poor
    record-keeping and mismanagement. We also found a pattern of neglect and apathy on the part of
    BIA management, resulting in haphazard monitoring of funds and a lack of maintenance upkeep. In
    short, we found a national disgrace.

           Since my testimony before the Senate Committee on Indian Affairs in April and the Senate
    Committee on Finance in September, limited progress has been made in securing Indian jails.
    However, Secretary Gale A. Norton directed senior Department and BIA officials to implement
    reforms and she has requested the assistance of the Bureau of Prisons, Department of Justice. We
    believe that anything short of a heroic effort by BIA personnel would be unacceptable.

            Also over the last 6 months, we reviewed and reported on 12 procurements valued at $81.1
    million, issued by DOI’s National Business Center on behalf of the U.S. Army for intelligence,
    interrogation, security services, and logistics in Iraq and Guantanamo Bay, Cuba. We discovered
    that 11 of these procurements should not have been issued because they were outside the scope of
    work allowed by the General Services Administration (GSA) for the contracting method used.
    Working with GSA and the Department of Defense, we issued four recommendations, which, if
    implemented, will help prevent this type of error from reoccurring.

            In another important area that affects all DOI employees, we initiated an evaluation into
    conduct and discipline within the Department and discovered problems – both real and perceived.
    Through employee interviews and a Department-wide survey – the first of its kind – employees
    identified poor management support, inconsistent enforcement, and a lack of training and guidelines
    as the three weakest areas of DOI conduct and discipline.




October 2004 Semiannual Report to the Congress
Message From the Inspector General



       Also during this reporting period, an individual was sentenced in the first federal case of tribal
recognition fraud. Ronald Roberts, known as Chief Golden Eagle, was sentenced for submitting false
documents to receive federal recognition for the Western Mohegan Tribe and Nation. This recognition
would have allowed Roberts to gain federal assistance and the ability to operate a casino.

        As an organization committed to promoting integrity and accountability, we expect that our
efforts will not only uncover fraud, waste, and abuse, but also produce meaningful, impartial results.




                                                      Earl E. Devaney
                                                      Inspector General




                                                                  October 2004 Semiannual Report to the Congress
                                                                          Table of Contents
Statistical Highlights                                                                    ii
Organization                                                                             iv
Mission                                                                                      v
Top Management Challenges                                                                    v

Significant Audits, Evaluations, Assessments, and Investigations
Department of the Interior                                                               1
Bureau of Indian Affairs                                                                 6
Bureau of Land Management                                                                15
Bureau of Reclamation                                                                    16
Insular Areas                                                                            18
National Business Center                                                                 20
National Park Service                                                                    21
U.S. Fish and Wildlife Service                                                           23

Appendixes
1. Summary of Audit Related Activities From April 1 Through September 30, 2004           25
2. Reports Issued or Processed During the 6-Month Period Ended September 30, 2004        26
3. Monetary Impact of Audit Activities From April 1 Through September 30, 2004           30
4. Non-Federal Funding Included in Monetary Impact of Audit Activities
        During the 6-Month Period That Ended September 30, 2004                          31
5. Audit Resolution Activities                                                           32
6. Summary of Audit Reports More Than 6 Months Old Pending Management Decisions
        April 1 Through September 30, 2004                                               35
7. Summary of Internal Audit and Evaluation Reports More than 6 Months Old
        Pending Corrective Action, April 1 Through September 30, 2004                    39
8. Summary of Insular Area Reports With Open Recommendations More Than 6 Months Old      45
9. Office of Investigations Program Integrity Assessments
        Issued During the 6-Month Period That Ended September 30, 2004                   47
10. Cross References to the Inspector General Act                                        48


October 2004 Semiannual Report to the Congress                                           i
Statistical Highlights


                                       Audit Activities
  Reports Issued                                                                                   28
        Internal Audits                                                          11
        Contracts and Grant Audits                                               17




                                        Audit Impacts
  Total Monetary Impacts                                                              $4,435,497

         Questioned Costs (includes unsupported costs)                           $1,590,866
         Recommendations That Funds Be Put to Better Use                         $2,754,236
         Lost or Potential Additional Revenues                                     $90,395
  Internal Audit Recommendations Made                                                              44
  Internal Audit Recommendations Resolved                                                          35




                               Investigative Activities
  Cases Closed This Period                                                                       159
  New Cases Opened                                                                               210
  Hotline Complaints/Inquiries Received                                                            81
  Assessments/Reviews Closed                                                                         2
  Assessment/Review Recommendations Made                                                           25




 ii                                                        October 2004 Semiannual Report to the Congress
                                                                Statistical Highlights


                          Criminal Investigative Activities
 Indictments/Information                                                          16
 Convictions                                                                       9
 Sentencings                                                                       9
       Jail                                                          190 mos.
       Probation                                                     312 mos.
       Community Service                                             650 hrs.
 Criminal Judgments/Restitutions                                          $1,702,871
 Criminal Matters Referred for Prosecution                                       69
 Criminal Matters Declined                                                       11


                               Civil Investigative Activities
 Civil Referrals                                                                   1
 Civil Recoveries                                                          $767,200
 Civil Declinations                                                                0


                    Administrative Investigative Activities
 Personnel Actions
       Removals                                                       4
       Suspensions                                                   10
       Resignations                                                   3
       Retirements                                                    2
       Reprimands/Counseling                                         12
       Reassignments/Transfers                                        4
       General Policy Actions                                         8

 Procurement Remedies
       Debarments                                                     2




October 2004 Semiannual Report to the Congress                                     iii
     Organization Chart



                                  Inspector General
                                 Deputy Inspector General




         Associate Inspector General                                   Office of
         for Whistleblower Protection                               General Counsel




             Assistant                      Assistant                   Assistant Inspector
       Inspector General                Inspector General            General for Administrative
        for Investigations                  for Audits               Services and Information
            Deputy AIG                     Deputy AIG                      Management
                                                                            Deputy AIG




                                                                                   Chief
                                                                               Information
                                                                                  Officer




iv                                                          October 2004 Semiannual Report to the Congress
                                                 Mission and Top Management Challenges


 Mission
 The mission of the Office of Inspector General is to
 promote excellence, integrity, and accountability in the
 programs, operations, and management of the
 Department of the Interior.

Responsibilities
    The Office of Inspector General (OIG) is responsible for independently and objectively identifying
risks and vulnerabilities that directly impact, or could impact, the Department of the Interior’s (DOI)
ability to accomplish its mission. We are required to keep the Secretary and the Congress fully and
currently informed about problems and deficiencies relating to the administration of departmental
programs and operations. Effective implementation of this mandate addresses the public’s demand for
greater accountability and integrity in the administration of government programs and operations and
addresses the demand for programs that work better, cost less, and get the results Americans care about
most.


Activities
    The OIG accomplishes its mission by conducting audits, investigations, evaluations, and assess-
ments relating to the programs and operations of DOI. Our activities are tied directly to DOI’s major
responsibilities and are designed to assist DOI in developing solutions for its most serious management
and program challenges, most notably cross-cutting or department-wide issues. These activities are
also designed to ensure that we keep critical issues prominent, which greatly influences key decision
makers and increases the likelihood that we will achieve desired outcomes and results that benefit the
public.

  DOI’s Top Management Challenges
 As reported in the DOI FY 2003 Report on Accountability


   Financial Management                                    Responsibility to Indians and Insular Areas
   Information Technology                                  Resource Protection and Restoration
   Health, Safety, and Emergency Management                Revenue Collections
   Maintenance of Facilities                               Procurement, Contracts, and Grants




October 2004 Semiannual Report to the Congress                                                           v
 Department of the Interior
Assessment Shows Indian Jails Are Neither Safe Nor Secure
    When our office initiated an assessment
focusing on detention facilities operated or funded
by the Bureau of Indian Affairs (BIA), we
discovered serious safety and security concerns
and found that BIA did not always appropriately
use the funds it received to operate the detention
program.

     Early in our assessment, we found that some
of the facilities we visited were egregiously
unsafe, unsanitary, and a hazard to both inmates
and staff. Our assessment found evidence of a
continuing crisis of inaction, indifference, and
mismanagement throughout the BIA detention                      Detention Facility Findings
program. Because these conditions were poten-
tially life-threatening, the Inspector General (IG)      During our visits to the jails, we discovered:
issued an interim report to the Secretary and testi-
fied before the U.S. Senate Committee on Indian             Eleven fatalities, 236 attempted suicides,
Affairs months before the final report was issued.          and 631 escapes had occurred during the
                                                            last 3 years. BIA was unaware of 98
    Our final report, “Neither Safe Nor Secure: An          percent of those serious incidents.
Assessment of Indian Detention Facilities,”
revealed a long history of neglect and apathy on            Most of the facilities operate below their
the part of BIA officials that has resulted in serious      authorized staffing level; the majority
safety, security, and maintenance deficiencies at           operate with only one detention officer per
the majority of facilities we visited.                      shift.

    An example of BIA’s failure to remedy poor              The maintenance backlog is significant.
conditions at Indian Country detention facilities
occurred when a 39-year-old inmate at the Yakama            Detention program funds are haphazardly
detention facility committed suicide. The inmate,           monitored.
who had been incarcerated for violating a domestic
violence no-contact order, was placed in isolation          The majority of the detention officers have
after attacking another inmate. He subsequently             yet to attend mandatory basic training.
hanged himself from a broken light fixture in a
corner of the cell out of view of a surveillance            Detention facilities do not meet BIA
camera using a blanket and a bucket that had been           standards for operation.


October 2004 Semiannual Report to the Congress                                                            1
 Significant Audits, Evaluations, Assessments, and Investigations

                                            left in the room. Only one person, a dispatcher, was on duty
                                            that night. Due to the heavy volume of calls for service that
                                            night, the dispatcher did not conduct periodic rounds of the
                                            cellblock, and the inmate’s body was not discovered until 8
                                            hours later.

                                              The inmate’s death occurred 1 month after we visited the
                                          Yakama site and 2 days after the IG testified before the Senate
                                          Committee on Indian Affairs about the deplorable conditions
                                          we had discovered during our site visits. The IG referred to
 Broken light fixture at Yakama detention his visit to Yakama during his testimony, and the OIG’s April
 facility                       OIG Photo interim report specifically addressed life-threatening issues
                                          comparable to those found at Yakama, yet BIA Law
 Enforcement Services (BIA-LES) management failed to implement sufficient safeguards to prevent
 such an incident.

     According to detention officers, BIA-LES had not visited the Yakama jail in more than 5 years and
 had also failed to show up for an inspection they had scheduled for 3 days prior to the inmate’s death.
 Detention staff also reported a second BIA inspection scheduled after the inmate’s death was cancelled
 without explanation. BIA detention specialists did not conduct a site inspection of this troubled
 detention facility until September 15, 2004.

      It is imperative that BIA take imme-
 diate action to alleviate potentially
 life-threatening situations at its detention
 facilities. Throughout the report we
 recommended 25 actions that we believe
 will improve the security, safety, and effi-
 ciency of detention facilities in Indian
 Country.

     In the first step toward correcting
 these problems, Secretary Gale A. Norton
 has directed senior DOI and BIA officials
 to implement reforms and has requested
 the assistance of the Bureau of Prisons,
 Department of Justice.

Read final report.                              An unsupervised inmate uses a knife in the kitchen of one of the
                                                detention facilities we visited.                           OIG Photo
Read interim report.




   2                                                                    October 2004 Semiannual Report to the Congress
                                  Significant Audits, Evaluations, Assessments, and Investigations

Chronic Problems in Conduct and Discipline Are Disclosed
    During the course of other work conducted by OIG auditors and investigators, we uncovered
numerous incidents in which misconduct by DOI employees was not addressed appropriately – or at all
– by DOI management. Upon hearing of these incidents, the IG became concerned about DOI’s entire
conduct and discipline process and initiated this evaluation. The evaluation found a number of short-
comings – both real and perceived – in DOI’s conduct and discipline process. Paramount in the
findings is a clear perception by employees that a significant amount of misconduct is not being
reported and that discipline is administrated inconsistently and unfairly throughout DOI.

    To complete our evaluation, we interviewed employees individually and in group meetings,
reviewed disciplinary case files, benchmarked with seven other agencies, and conducted an extensive
employee survey. The survey was sent to more than 25,000 employees; 9,340 employees responded, an
overall response rate of 37 percent. This high response rate maximized the accuracy of our statistical
findings, producing a margin of error of plus or minus 1.1 percent.

                                                             Employee responses revealed three themes: (1)
                                                        failure of DOI management to confront issues of
                                                        conduct and discipline, (2) selective and inconsis-
                                                        tent administration of discipline, and (3) ineffective
                                                        training in conduct and discipline for management
                                                        and employees. The effect of these conditions: a
                                                        belief by the majority of respondents that their
                                                        work environment is unfair and hostile.

                                                                We concluded that DOI must develop and
                                                            implement a comprehensive and consistent conduct
                                                            and discipline program that sends a clear signal that
                                                            conduct of the highest standard is expected of all
                                                            DOI employees, that misconduct will not be toler-
DOI employee responses showed that they perceive a cycle    ated and will be disciplined, and that employees
effect in the way management responds to conduct and        who report and supervisors who discipline miscon-
discipline issues.                         OIG Illustration
                                                            duct will have the full support of DOI management.

   Our recommendations to resolve these problems include: (1) training managers and employees on
expectations of proper conduct, (2) holding managers accountable for addressing conduct and discipline
appropriately, and (3) developing and imposing instructive and consistent guidance department-wide.
Senior DOI management is developing a comprehensive plan to address the issues identified in our
report.

 Read full report.




October 2004 Semiannual Report to the Congress                                                                3
Significant Audits, Evaluations, Assessments, and Investigations

Scrutiny of Single Audit Reports Finds Numerous Deficiencies
     The Single Audit Act requires non-federal organizations that expend federal financial assistance
(i.e., grants, contracts, and loans) in excess of $500,000 to obtain an organization-wide audit, or single
audit, of all their funding for that year. The Single Audit Act also identifies oversight responsibilities
for federal agencies.

    As part of our oversight responsibility, we assess the quality of single audits that identify DOI as
the principal federal funding agency.

                                 Review of Single Audit Reports
 OIG recently completed 70 reviews with the following results:
     Two reviews found that the auditor did not           Seven reviews identified at least three
     conduct sufficient tests of major programs           errors or deficiencies in each report, such
     or that the level of testing did not meet            as incomplete or incorrect findings,
     federal requirements.                                unfinished or incomplete financial
                                                          schedules, disagreement between financial
     Forty-six reviews found that the audit               statement components, and missing
     reporting package was not submitted within           sections from the audit report.
     the required 9-month time frame after the
     end of the audit period.                             Seven reviews resulted in the auditors re-
                                                          issuing the reports to correct deficiencies.



Agencies Lack Plan for Hiring Temporary and Critical Staff
   Neither DOI nor its individual bureaus had developed an overall approach or guidelines for
acquiring non-permanent staff. Specifically, we found that bureaus were:

         not ensuring that contracted services were needed,
         using wrong contract sources,
         not ensuring appropriate pay rates were established for temporary staff, and
         requesting specific individuals without sole-source justifications.

    Agency contracting and human resource officials were not always involved or informed about the
temporary staffing decisions, and none of the bureaus we reviewed had accurate information about the
numbers or types of temporary staff acquired. The lack of management information and oversight
leaves this area open to questionable practices and abuse. Management agreed to issue appropriate
guidance to address most of these issues. We have requested additional information regarding manage-
ment’s response to one recommendation.
Read full report.

 4                                                                 October 2004 Semiannual Report to the Congress
                                  Significant Audits, Evaluations, Assessments, and Investigations

DOI Employee Ordered to Return Unlawful Compensation
    Robert Berman, a DOI employee who
illegally received compensation for his
expertise on oil valuation issues, was
ordered to repay the $383,600 that he
received from a non-profit organization.
He also is not allowed to accept additional
payments that he would have eventually
received. The U.S. Government alleged
that the Project on Government Oversight
(POGO), a non-profit organization that
identifies itself as a government watchdog,
illegally paid Berman $383,600.

    Executive branch employees are
prohibited by law from receiving a supple-
mental salary in compensation for
government services. POGO paid Berman
under an agreement to split POGO’s share
as a relator in qui tam litigation against 16
major oil companies for underpaying
royalties owed for oil extracted from            An offshore oil platform   Minerals Management Service Photo
federal and Indian lands.

    Berman was employed as an economist with the DOI Office of Policy Analysis, Assistant Secretary
– Policy Management and Budget, and is an expert on oil valuation issues. The $383,600 payment
triggered criminal, civil, and congressional investigations, leading POGO to suspend payments pending
final resolution. The congressional and criminal investigations ended without action. Under the agree-
ment, POGO would have paid Berman an additional $3 million based on the $440 million eventually
recovered in the qui tam litigation.




October 2004 Semiannual Report to the Congress                                                            5
 Bureau of Indian Affairs

Sentencing in First Federal Case of Tribal Recognition Fraud
    Ronald Roberts, also known as Chief Golden Eagle of the Western Mohegan Tribe and Nation, was
sentenced to 6 months home detention, 5 years probation, and ordered to pay nearly $28,000 in restitu-
tion. Roberts had previously pleaded guilty, midway through his trial, to submitting false documents to
the government with his petition for federal recognition of the Western Mohegan Tribe and Nation and
to making false statements under penalty of perjury in a bankruptcy case. The U.S. Attorney has filed a
protective notice of appeal (currently being reviewed) based on alleged errors in the application of
Federal Sentencing Guidelines that would have required Roberts to serve at least 21 months in prison.

    The federal recognition process is an important and unique process, essential to the establishment of
a government-to-government relationship between the U.S. Government and Indian tribal governments.
Roberts’ case was the first of its kind to be prosecuted and illustrates our office’s dedication to safe-
guarding the integrity of the acknowledgement process. We were assisted in this case by DOI’s Office
of Federal Acknowledgement.




                                     Federal recognition of an Indian tribe grants numerous
                                     rights to the tribe as a sovereign entity, one of which is the
                                     ability to conduct casino gaming operations. It is the
                                     government’s contention that Roberts submitted the
                                     fraudulent federal recognition documents in an effort to
                                     establish an Indian gaming facility in northern New York.




 6                                                               October 2004 Semiannual Report to the Congress
                                  Significant Audits, Evaluations, Assessments, and Investigations


BIA Agrees to Improve Oversight of Its Contract With the
Navajo Nation to Provide Social Services and Assistance
    BIA contracts with the
Navajo Nation for the delivery                   Navajo Nation Social Services Contract
of social services. Under the
                                          We identified areas where improvements could be made to the
contract, the Navajo Nation is
                                          social services program performance, most notably in financial
responsible for providing
                                          and management controls. For example:
welfare assistance payments,
adult and elderly institutional              Monthly financial reports did not always agree with the
and in-home care services, and               supporting general assistance database, manual spread-
Child Protective Services. The               sheets, or the Navajo Nation Financial Reporting System.
Navajo Nation received $31.4
million in FY2003 for its social             Required Financial Status Reports and Annual Audits under
services program. Improved                   the Single Audit Act were not completed and submitted in a
monitoring and technical assis-              timely manner.
tance from BIA in those areas
could be beneficial to enhance               At two of the three Navajo
the effectiveness and efficiency             Nation regional offices we
of the program. BIA agreed                   visited, payroll costs for
with our recommendation and is               work performed on state-
strengthening its contract over-             funded programs were
sight by establishing ongoing                incorrectly charged to the
processes for program evalua-                BIA-funded contract.
tion and management controls,
not only for the social services             Information in the case files
contract but other contracted                was not always sufficient to verify
programs as well.                            invoiced amounts and/or client income.
Read full report.


BIA Employee Indicted for Possession of Child Pornography
    Kenneth Young, a BIA petroleum engineer at Southern Ute Agency, Ignacio, CO, was indicted by a
federal grand jury in U.S. District Court of Colorado on two counts of receiving and possessing child
pornography for knowingly receiving child pornography that had been transported in interstate
commerce. Young is alleged to have possessed at least 50 child pornography images on his
government computer. Young was arrested and a trial is pending. Administrative action is also
pending.

     This indictment was the result of a cooperative investigation by our office and the FBI.

October 2004 Semiannual Report to the Congress                                                             7
Significant Audits, Evaluations, Assessments, and Investigations


Crow Tribal Chairman’s Conviction and Sentencing Upheld;
Chairman’s Brother Is Sentenced for Violating Probation
    The Ninth Circuit Court of Appeals upheld the conviction and sentencing of Crow Tribal Chairman
Clifford G. BirdinGround, who appealed his sentencing on the grounds that he does not understand the
English language. BirdinGround was convicted of charges that he received bribes from a Billings, MT,
automobile dealership in return for the purchase of vehicles by the Crow Tribe of Indians, and he had
been sentenced to 37 months imprisonment and 36 months of supervised release.

    BirdinGround’s brother, Alexander R. BirdinGround’s, violated his probation after previously
pleading guilty and being sentenced on charges of conspiracy and theft from an Indian tribal organiza-
tion. OIG agents from our Billings, MT, field office and BIA law enforcement personnel arrested
Alexander BirdinGround and he was then charged with violating multiple conditions of his probation,
including failure to pay restitution. He was subsequently sentenced to serve 6 months.



Crow Finance Director and Four Others Indicted in Scheme
to Defraud Tribe to Help Chairman Pay Attorney Fees
    Five people were indicted on charges of theft from a tribal organization and conspiracy to commit
theft from a tribal organization for their roles in a scheme designed to steal money to help Crow Tribal
Chairman Clifford G. BirdinGround pay for his defense attorney. (See above story.)

    Our office conducted an investigation into allegations that that Kelly Passes, former Finance
Director, Crow Tribe of Indians, Crow Agency, MT, created fictitious contracts and inflated real
contracts worth thousands of dollars and awarded them to friends and family. Passes allegedly created
a fake consulting contract for Tammy Findley, Court Clerk, Big Horn County Courthouse, Hardin, MT,
who subsequently negotiated two $5,000 checks and gave the proceeds to BirdinGround to pay for his
defense attorney. Passes also allegedly created a fictitious $14,000 contract for his brother, Brenden
Passes, and inflated the amount of contracts awarded to Harvest White and Elliot Mountain Sheep.

    For their roles, Brenden Passes, Findley, and White were each charged with one count of theft from
an Indian tribal organization and one count of conspiracy to commit theft. Mountain Sheep was also
charged with one count of theft from an Indian tribal organization and one count of conspiracy to
commit theft in a separate indictment.




 8                                                               October 2004 Semiannual Report to the Congress
                                  Significant Audits, Evaluations, Assessments, and Investigations

Investigation Finds Ione Band of Miwok Indians’ Elections
Conducted and Authorized Properly, Despite Disputes
    In February 2004, our office investigated allegations that a BIA senior manager improperly influ-
enced the Ione Band of Miwok Indians’ 2002 tribal election. The allegations centered around the
contention that the election, supervised by another BIA employee, allowed members of that
employee’s family to be improperly added to the tribal roles. Additional allegations suggested that the
tribal membership inappropriately increased, resulting in the election of a pro-casino tribal leadership.

    Historically, there have been long-standing disputes between two opposing factions within the Ione
Band of Miwok Indians regarding their tribal leadership. The leadership dispute is exacerbated with
the current leadership advancing casino interests for the Band and the other faction opposing a casino.
The casino issue has also divided the local community into distinct pro- and anti-casino groups.

    The OIG reviewed thousands of historical documents and interviewed all pertinent parties. We
found the election had been properly authorized and conducted. The BIA senior manager had been
properly recused and had taken no official action regarding the Band, which would advance personal
interests. The BIA employee who was originally appointed to oversee the tribal election resigned
from the position before the election. Neither this employee nor the employee’s family were ever
enrolled tribal members. The increase in the tribal members resulted from the two opposing tribal
factions ratifying new tribal membership criteria.



Former Non-P
           Profit Coordinator Indicted for Embezzlement
    Franklin E. Akoneto, former Program Coordinator, Lawton Johnson O’Malley Parent Committee,
Inc., was indicted by a federal grand jury in U.S. District Court, Western District of Oklahoma, for
embezzlement in connection with his role in a fraud scheme. The scheme cost BIA thousands of
dollars intended for Native American children attending public schools in the Lawton, OK, area.

    The indictment alleges that Akoneto embezzled more than $51,000 from the Lawton Johnson
O’Malley Parent Committee, Inc., a non-profit organization designed to provide financial assistance to
Native American children enrolled in an Indian education program, which is funded by the BIA, Office
of Indian Education Programs. Akoneto was arrested in connection with the charges, and court action
is pending.




October 2004 Semiannual Report to the Congress                                                         9
Significant Audits, Evaluations, Assessments, and Investigations


Texas Man Sentenced for Falsely Promising High-YYield
Investments, Defrauding Victims of $1.6 Million
   Howard Eugene Liner was convicted and sentenced for defrauding victims, including two tribes in
Minnesota, of more than $1.6 million in a scheme that promised investors sensational returns. Liner,
age 58, from Katy, TX, solicited investors primarily in southern Minnesota, including the Upper and
Lower Sioux Community Tribes, for a high-yield investment program scheme that promised returns as
high as 100 percent per month.

   Liner lulled investors by falsely stating that the programs were sponsored or overseen by the U.S.
Department of the Treasury, the Department of Defense, and the Federal Reserve and that their
purpose was to fund humanitarian projects that would benefit global development.

     Evidence presented during the trial showed that Liner did not place investors’ money into these
fictitious trading programs. Instead, he diverted investors’ funds for his own personal benefit and
made some payments to investors to create the appearance that the trading programs were actually
producing profits.

    Liner was convicted in September 2003 by a federal jury on 1 count of false statements, 17 counts
of wire fraud, and 1 count of money laundering. He was sentenced in May 2004 to 11 years and 3
months incarceration, 3 years supervised release, and ordered to pay full restitution of $1.6 million.


Former Tribal Employee Sentenced in Kickback Scheme
    Charanjit Singh Sodhi, former Director of Natural Resources, Chehalis Indian Nation, pleaded
guilty to a charge of embezzlement and theft from an Indian tribal organization regarding a contract he
facilitated between the tribe and an independent contractor using funds provided by BIA. Sodhi used
his position with the tribe to bypass competitive solicitation regulations making the $30,000 award to a
contractor in return for a $15,000 kickback.

    Sodhi was sentenced in the U.S. District Court of the Western District of Washington to 24 months
of probation, 2 months of home confinement, and 250 hours of community service. He was ordered to
pay $30,000 restitution. This investigation was a joint effort with the FBI.




10                                                               October 2004 Semiannual Report to the Congress
                                  Significant Audits, Evaluations, Assessments, and Investigations

Tribal Officials Request Investigation; Two Indicted for
Embezzlement From Fort Belknap Insurance Company
   We began our investigation of suspected embezzlement by employees of the Fort Belknap Insurance
Company (FBIC) at the request of elected officials of the Assiniboine and Gros Ventre Tribes of the
Fort Belknap Indian Reservation. Our investigation resulted in the indictments of two FBIC
employees.

   Between April 1997 and May 2000, Gregory Morris Powderface, a contract employee of the FBIC,
was conducting business as Financial Native Network (FNN). The investigation revealed that
Powderface was allegedly paid in excess of $100,000 from the FBIC main account based on FNN
invoices for services rendered. In addition, the investigation determined that, unknown to the Fort
Belknap officials, Powderface allegedly was responsible for more than $97,000 in unauthorized Visa
debit card transactions from the FBIC main account, most of which appear to be for his personal
benefit.

     Powderface was indicted for theft/embezzlement from an Indian tribal organization, filing a false
tax return, and willful failure to file a tax return. Powderface pleaded not guilty to the charges, and his
trial is scheduled for October 2004.

     Another former FBIC employee, Roxanne Blue Horse, formerly an accounting technician, was also
indicted for theft/embezzlement from an Indian tribal organization. The investigation revealed a
number of personal transactions authorized by Blue Horse through her use of another unauthorized Visa
debit card issued in her name against the same FBIC account. Blue Horse pleaded not guilty and her
trial is pending.

    This investigation is being conducted jointly with the FBI and the IRS.



Santee Sioux Tribal Official Pleads Guilty to Theft
    Richard Thomas, former Social Services Director, Santee Sioux Tribe (SST) of Nebraska, pleaded
guilty in U.S. District Court of Nebraska to charges of theft from a program that receives federal funds
and theft from an Indian tribal organization.

    As we reported in our last Semiannual Report, Thomas was indicted for theft for using a tribal
credit card for personal expenses, including making cash withdrawals at casinos. Thomas paid the
credit card charges with checks he diverted from the SST. These checks included federal funds
received from the BIA through a Public Law 93-638 contract. Sentencing is scheduled for December
2004.


October 2004 Semiannual Report to the Congress                                                           11
Significant Audits, Evaluations, Assessments, and Investigations


Counselor Sentenced for Stealing Radio Station Funds
    Denise Brown Eyes, academic counselor at Oglala
Lakota College in Pine Ridge, SD, was sentenced to 5
years probation by the U.S. District Court of South
Dakota, for embezzling nearly $33,000 from KILI
Radio Station, where she had been employed as a
radio station business manager. In addition, Brown
Eyes was ordered to pay $31,000 in restitution to
KILI Radio Station, and she was terminated from her
position as academic counselor at the Oglala Lakota
College.
                                                         Indian Tribal flag of the Oglala Sioux Nation
                                                                                                    OIG Photo
    As reported in our April 2004 Semiannual Report,
Brown Eyes pleaded guilty following her indictment
for theft. Brown Eyes admitted that while employed at KILI Radio Station (Lakota Communications),
she stole 100 personal money orders over 13 months. Brown Eyes received these money orders in her
capacity as KILI Business Manager for the payment of various KILI financial obligations, and altered
the payee information in order to cash them.

    KILI radio has annual underwriting agreements with the BIA contract/grant schools within Pine
Ridge, SD. These agreements fund approximately two-thirds of the radio station’s budget (P.L. 93-
638 contracts). The BIA Wildland Fire Program also has contract agreements with KILI radio to
perform various advertising and promotion services.


School Custodian Indicted for Theft of Government Property
    Jeanette Lawrence, former custodian, Tate Topa Tribal Grant School in Fort Totten, ND, was
indicted by a federal grand jury in the U.S. District Court of North Dakota for theft of government
property.

    Our investigation determined that she spent more than $20,000 of federal funds, knowing that she
was not entitled to the money. The Department of Labor (DOL) had inadvertently deposited an over-
payment of worker’s compensation benefits into Lawrence’s bank account. Lawrence had been
receiving worker’s compensation since March 1998.

   A day prior to the overpayment, DOL contacted Lawrence and explained that an error had been
made, and an overpayment of workman’s compensation funds would be deposited into her account.
DOL further explained to Lawrence that she was not entitled to the money and that the funds were
supposed to be directed to the Office of Personnel Management for benefit reimbursement.



12                                                               October 2004 Semiannual Report to the Congress
                                  Significant Audits, Evaluations, Assessments, and Investigations

Investigation Clears BIA and Schaghticoke Tribe of Allegations
    In March 2004, we initiated an investigation into BIA’s federal recognition of the Schaghticoke
Tribal Nation (STN). Multiple allegations were raised concerning BIA’s federal recognition, including:
(1) BIA bent the rules, (2) the Office of Federal Acknowledgement (OFA) authored a briefing paper
explaining how the tribe’s petition could be approved even if they did not meet all the mandatory
criteria, (3) STN supporters improperly influenced BIA officials decision, and (4) an OFA employee had
a personal bias toward Connecticut government officials, which prejudiced the recognition findings.

    After reviewing thousands of documents and interviewing the parties involved in the recognition
process, we found that the BIA conducted itself according to the rules for granting federal recognition to
the STN. The briefing paper was prepared by the OFA to assist the Deputy Assistant Secretary, Indian
Affairs, with the decision-making process, knowing it would be subject to public disclosure. Finally,
there was no evidence of undue influence of BIA senior managers by outside STN supporters and there
was no evidence of an OFA employee’s personal bias toward Connecticut government officials that
affected the recognition process.

Two Former Fort Sill Apache Tribal Consultants Charged With
Reselling Pharmaceuticals Intended for Internal Tribe Use
    Wilbur “Bill” Swift, Jr., and Fred Solmor, former tribal consultants for the Fort Sill Apache Tribe,
were charged in the U.S. District Court, Western District of Oklahoma, after allegedly illegally
purchasing and reselling pharmaceuticals for profit that were intended for internal use by the Fort Sill
Apache Tribe in Oklahoma. Swift and Solmor were also charged with interstate transportation of prop-
erty obtained by fraud in connection with this illegal pharmaceutical diversion fraud scheme.

    Under a consulting agreement with the Fort Sill Apache Tribe to establish a tribal pharmacy, Swift
and Solmor allegedly illegally purchased pharmaceuticals at discounted, federal-contract prices. Swift
and Solmor reportedly abused the Fort Sill Apache Tribe’s federally recognized status and its Indian
Self Determination Act contracts to obtain these discounted pharmaceuticals, which were restricted for
the tribe’s internal use and not eligible for resale.

                                  Swift and Solmor are alleged to have diverted $1.8 million in pharmaceu-
                               ticals from the tribe by secretly selling the pharmaceuticals to shell
                               companies that they controlled, and then reselling them at a profit. The
                                               investigation determined that Swift and Solmor approached
                                                 several other federally recognized Indian tribes throughout
                                                   the United States to promote this same scheme.

                                                    The trial is pending. These charges were the result of a
                                                 cooperative investigation by our office, the Food and Drug
                                                 Administration, and the FBI.

October 2004 Semiannual Report to the Congress                                                           13
Significant Audits, Evaluations, Assessments, and Investigations


Former Employee Sentenced for Receiving Unauthorized Pay
   Daniel T. Spencer, a Master Sergeant with the U.S. Army Reserves and a former BIA employee,
was sentenced in U.S. District Court for the District of Montana in Great Falls, MT, to 6 months of
house arrest and 5 years of probation and was ordered to pay $45,000 in restitution along with a $100
special assessment fee.

    As we reported in our April 2004 Semiannual Report, Spencer was indicted by a federal grand jury
in Montana and pleaded guilty to theft of federal government money.

    More than $36,000 was deposited into Spencer’s bank account during a 10-month period, after he
received notice that his orders calling him to active duty had been cancelled. Spencer admitted to
spending the money the Army deposited into his account and has since resigned from his position with
the BIA.




14                                                             October 2004 Semiannual Report to the Congress
 Bureau of Land Management

Company President Pleads Guilty for Product Substitution
    Boyd Goble, president of
Goble Seed Company, pleaded
guilty in U.S. District Court of
Colorado to charges of wire
fraud, false statements, and false
claims.

    As we reported in our April
2003 Semiannual Report, Goble
and his son, Jeffrey Goble, were
indicted by a federal grand jury
in the District of Colorado on
charges of wire fraud, mail fraud,
false statements, aiding and abet-
ting, and false claims in
connection with a product substi- Workers unload bags of seed outside a warehouse.                  OIG Photo
tution scheme. The Bureau of
Land Management (BLM) contracted with Goble for the delivery of nearly 155,000 pounds of fourwing
saltbush seed, collected from plants growing at higher altitudes in northern states, which is considered
vital to the successful stabilization and restoration of lands debilitated by forest fires. Goble submitted
invoices to the BLM totaling more than $3 million after deliberately substituting inferior, less expensive
seed, which would die or fail to thrive in the locations where the seed was to be planted.

    Sentencing for Boyd Goble is pending. The United States dismissed the charges against Jeffrey
Goble, who had been indicted for aiding and abetting the fraud after he passed a polygraph examination
as to the issue of criminal intent.

BLM Contractor’s Reimbursement Claim Is Overstated
    A contractor submitted a claim of about $490,000 to BLM seeking reimbursement for extra costs
incurred while building the National Historic Trails Interpretive Center in Casper, WY. The contractor
stated that BLM had provided erroneous contract plans and specifications, which resulted in extra
performance time and costs to complete the project.

    We reviewed the claim and concluded that the contractor overstated its alleged damages for field
office and home office overhead. Accordingly, we questioned approximately $250,000, or more than
half, of the total claimed amount. BLM has not yet resolved this matter.
                                                                                Read full report.
October 2004 Semiannual Report to the Congress                                                           15
 Bureau of Reclamation
California’s Ability to Repay Investment Is Questionable




California’s Shasta Dam stores surplus water to use for irrigation during dry months.                       BOR Artwork

    In the more than 50 years of Central Valley Project (CVP) operation, California farmers and cities
have repaid just a little more than 10 percent of the $1.6 billion federal investment. Concerned with
growing deficits in recovering CVP operation and maintenance costs and minimal repayment of
construction costs, the Congress established a deadline of 2030 for repayment of all deficit and capital
costs. Our review of the Bureau of Reclamation’s (BOR) process for renewing long-term contracts
with CVP water users revealed that repayment by this date is uncertain, primarily because of aid to irri-
gation, a ballooning debt.

    Aid to irrigation is the cost of the federal subsidy to farmers, which is repaid by revenues from
project power generation at the end of the repayment period. We found that irrigation aid was
ballooning, increasing from $21 million as of 2002 to a potential $250 million by 2030. Most
alarming, this amount could be higher, given the impediments to repayment: (1) increasing water rates,
which may drive more farmers to apply for assistance; (2) the ever-present threat of drought and its
effect on water supplies; and (3) a deregulated energy market, which may not bear the increasing costs
of irrigation assistance.

    We offered two suggestions to help stabilize the water and power rate-setting processes for CVP
repayment: (1) revise the water rate-setting base to reflect a more realistic estimate of future deliveries
and (2) annually compute estimated total aid to irrigation requirements for the CVP and provide this
information to the power rate-setting agency.
                                                         Read full report.
16                                                                           October 2004 Semiannual Report to the Congress
                                  Significant Audits, Evaluations, Assessments, and Investigations

Denver Office Did Not Follow Procurement Requirements
    The Bureau of Reclamation – Denver
Office (BOR-DO) did not have an                     Examples From BOR – Denver Office
adequate system of controls to ensure that
                                                 Examples of how BOR-DO failed to ensure that
contracting was performed in accordance
                                                 contracting was performed according to regulations
with acquisition regulations and guide-
                                                 and guidelines:
lines.
                                                   Made incorrect payments to contractors.
    As a result, the BOR-DO lacked
assurance that it was acquiring goods and          Awarded a sole-source contract without adequate
services at the most economical prices             justification.
and that the payments to contractors were
accurate.                                          Awarded cost-plus-percentage of cost contracts,
                                                   which are prohibited by federal regulations.
    The Commissioner, BOR, concurred
with all four recommendations and stated           Awarded time-and-materials contracts when firm-
that BOR will implement policy and                 fixed-price contracts would have been more
procedures to comply with the                      advantageous to the government.
recommendations.            Read full report.



Audit of Contractor Finds Questionable Costs
   A contractor billed costs of $976,500 to provide security risk assessments of BOR facilities. Our
audit of the billings identified questionable costs of approximately $51,600, as follows:

        Labor costs of $49,332 that were not supported by adequate time records.

        Equipment costs of $5,270 representing items retained by the contractor for which the
        costs should have been but were not deducted from the billings.

        Indirect costs of $1,554 that were calculated incorrectly.

   We then offset the total questioned costs of $56,156 by $4,515 in additional labor costs due to
contractor.




October 2004 Semiannual Report to the Congress                                                        17
 Insular Areas
Virgin Island Government Officials Misuse Credit Cards
   Our audit found that the employees of the Government of the Virgin Islands used official
government credit cards to buy personal items costing $180,820. In the worst case, the former General
Manager of the Virgin Islands Public Television System made personal charges totaling $101,370,
which included more than $10,000 in charges coinciding with the official’s wedding and honeymoon.

    We also identified charges totaling $339,990 for purported business expenses that were not
supported by receipts or other appropriate documentation. Most of these unsupported charges occurred
at the Public Television System and the Water and Power Authority. We identified these abuses during
our audit of approximately $3.1 million in credit card charges made by eight autonomous agencies of
the Government of the Virgin Islands during fiscal years 1998 to 2003.

    These discrepancies occurred because the agencies generally did not have comprehensive policies
and procedures to (1) define the allowable uses of official credit cards, (2) establish strong internal
controls to monitor the use of credit cards, and (3) specify the appropriate disciplinary action for misuse
of credit cards. We made 11 recommendations to strengthen controls over the use of official credit
cards at the 8 agencies audited. Agency officials say they have implemented 9 of the 11
recommendations, and 2 recommendations remain unresolved.

   Subsequent to our audit, the General Manager of the Public Television System was terminated and
required to make full restitution for the credit card charges incurred.

Read full report.




 18                                                               October 2004 Semiannual Report to the Congress
                                  Significant Audits, Evaluations, Assessments, and Investigations

Former Official Pleads Guilty for Giving Contracts to Family
   Tafua Fa’au Seumanutafa, former American Samoa Government (ASG) Chief Procurement Officer
(CPO), and Patolo Mageo, former Deputy Director of the ASG Department of Human and Social
Services (DHSS), pleaded guilty to charges of conspiracy to defraud.

    Our office initiated an investigation after receiving a complaint from the ASG Senate Select
Investigative Committee Chairman Senator Lualemaga E. Faoa. The complaint focused on impropri-
eties involving procurement policies and procedures with the ASG’s Department of Education.

    The investigation disclosed that Seumanutafa, in his official capacity as CPO and in participation
with his co-conspirators, allocated furniture contracts for American Samoa schools to certain vendors,
including a business that was operated by his family members. In addition, Seumanutafa and his co-
conspirators subdivided purchase orders for the contracts into amounts less than $10,000 to avoid
subjecting the purchases to competitive bid, as required by ASG Procurement Rules, enabling
Seumanutafa to approve the purchase orders. Furthermore, Seumanutafa gave Mageo money in
exchange for Mageo giving contracts to Seumanutafa’s family business to construct and repair DHSS
buildings.



Improvements Made in Insular Areas Governments
    According to our Insular Areas Field Liaison for the Pacific, new efforts and training opportunities
by the Pacific Island Public Auditors have led to progress in several areas. Some of the improvements
include the increased capacity of the local offices of the Public Auditor to perform audits and investiga-
tions over the use of local funds and the review of related accounting systems and controls. In addition,
the Public Auditors have provided assistance in the closing of long-outstanding internal audit
recommendations. As of August 31, 2004, the Liaison reported that 149 recommendations (30 reports)
have been closed.

    There have been increased efforts to provide on-the-job training for Pacific Island government audi-
tors in OIG regional offices. Auditors from the Republic of Palau, Federated States of Micronesia
National Government, Yap State Government, Government of Guam, and the Commonwealth of the
Northern Mariana Islands have participated in the training.

    We believe that these on-going, focused efforts have and will continue to improve the capacity of
the Insular Areas’ auditors and investigators and will help highlight the importance of accountability to
Pacific Island government officials.




October 2004 Semiannual Report to the Congress                                                         19
 National Business Center
Review Prompts Quick Action to Correct Deficiencies in
Procurements for Intelligence and Security Services
    Our review of 12 procurements, valued at $81.1 million and placed by the National Business Center
(NBC) on behalf of the U.S. Army for interrogation, intelligence, security services, and logistics,
revealed that 11 procurements were outside of the scope of work for these schedules and should not
have been issued. Since these 11 procurements were outside the scope of work allowed by the General
Services Administration (GSA) for the contracting method used, we concluded that these procurements
for services in Iraq and at Guantanamo Bay, Cuba, should be terminated.

   Factors contributing to the improper use of GSA schedules were the lack of a system that promoted
both competition and the public interest, and ineffective monitoring by NBC.

    DOI, NBC, the Department of Defense, and GSA acted quickly to correct the deficiencies. We
made four recommendations to help ensure that these kinds of deficiencies would not occur in the
future.

Read full report.




20                                                            October 2004 Semiannual Report to the Congress
 National Park Service

Correct Amount of Fees Not Collected at Virgin Islands Park




                    Trunk Bay, St. John, Virgin Islands National Park             OIG Photo


    Our audit found that Virgin Islands National Park officials did not adequately monitor the activities
of concessionaires and business permit holders to ensure that they paid appropriate concession and
permit fees. We estimated that about $60,000 in concession and permit fees had not been collected
during fiscal years 2001 through 2003. We also determined that some concession files did not contain
required documentation on insurance, health inspections, annual financial reports, and local business
licenses. In addition, we found a shortage of at least $9,000 in entrance fee collections and overdue
fees from tour operators totaling more than $21,000.

    We attributed these deficiencies to the fact that park officials had not assigned concession oversight
responsibility to specific employees and did not follow sound internal control practices to collect and
safeguard fees. We made eight recommendations to improve internal controls over concession manage-
ment and fee collection activities, which park officials say they have implemented.


Read full report.




October 2004 Semiannual Report to the Congress                                                         21
Significant Audits, Evaluations, Assessments, and Investigations

Contractors Sentenced for Bribing NPS Contracting Official
    Two contractors were sentenced in relation to
a bribe offered for an National Park Service
(NPS) contract to replace theater seats at the
Chamizal National Memorial in El Paso, TX.
Harmon Maddox was sentenced in U.S. District
Court, Western District of Texas, El Paso
Division, to 3 years probation and 100 hours of
community service, fined $2,500, and ordered to
pay a $100 special assessment stemming from
charges of conspiracy and bribery. Angela
Sanchez was also sentenced in U.S. District
Court, Western District of Texas, El Paso
Division, to 3 years probation, 100 hours            Chamizal National Memorial in Texas              NPS Photo
community service, and ordered to pay a $100
special assessment for her role in the conspiracy and bribery.

   As reported in our April 2004 Semiannual Report, Sanchez offered a $4,000 bribe, which was paid
by Maddox, to a NPS contracting official in exchange for the NPS contract valued at approximately
$131,000.

    Another subject in the case, David Ahumada, contracting agent, U.S. Army was sentenced in U.S.
District Court, Western District of Texas, El Paso Division, after he had pleaded guilty to two counts of
bribery in regard to soliciting kickbacks from a prime contractor. He was ordered to serve 4 months
incarceration (on each of the 2 counts, to run concurrently), 3 years supervised release, 200 hours
community service, fined $1,000, and ordered to pay a special assessment of $200.

     These cases are a result of a joint effort between our office and the FBI.




22                                                                 October 2004 Semiannual Report to the Congress
 U.S. Fish and Wildlife Service

Investigation Determines Replacement of Scientists
at Missouri River Site Was Appropriate
     At the request of six U.S. Senators, we initiated an
investigation concerning the removal of several scien-
tists assigned to formulate a new biological opinion
regarding the Missouri River. The Senators questioned
whether the U.S. Fish and Wildlife Service (FWS) could
conduct an unbiased consultation with the Army Corps
of Engineers (Corps) after removing the scientists and
replacing them with handpicked individuals.

    The investigation determined that FWS and the
Corps were at an impasse regarding the management of
the river’s spring and summer flows, and its impact on      Least Tern                         FWS Photo
the endangered least tern and pallid sturgeon and the threatened piping plover. To address this, a new
team was established to consult with the Corps. The new team consisted of 13 members, 6 of whom
were members of the original team.

                                                          The investigation revealed no evidence to suggest
                                                       that the removal of team members was for any reason
                                                       other than the stated purpose of resolving the impasse.
                                                       In addition, DOI’s Science Advisor opined that
                                                       changing the team membership did not violate any
                                                       standards of scientific ethics.




Pallid Sturgeon                            FWS Photo




October 2004 Semiannual Report to the Congress                                                             23
Significant Audits, Evaluations, Assessments, and Investigations

Audits of State Grants Find Potential Savings of $3.5 Million
    Six of eight audits of grants that FWS awarded to states for sport fish and wildlife restoration proj-
ects revealed a potential savings of $3.5 million. The grants finance up to 75 percent of state-sponsored
projects, such as developing sites for boating access and acquiring and managing natural habitats.
States cover the full cost of an approved grant project and then apply to FWS for reimbursement.

   During audits of grants in six states, we questioned the eligibility for reimbursements of $752,719
and identified income of more than $2,750,000 from grant-supported activities. This income could
have been used to defray program costs.

A breakdown of the significant issues disclosed in the audits follows. FWS is working with the states to
resolve these matters.

     The state of South Dakota claimed ineligible costs of $42,089, including costs of maintaining
     property acquired under a different grant program and costs for advertising, which is not allowed
     by federal cost standards. Read full report.

     The state of Connecticut did not report program income of $240,277, which it earned from the
     sale of timber on lands maintained with FWS grant funds. Read full report.

     The state of New York claimed $668,504 in excess of allowable indirect costs and did not report
     $980,616 in program income from the sale of timber and agricultural products on lands maintained
     with FWS grant funds.    Read full report.


     The state of Alaska claimed ineligible costs of $13,006, including costs incurred outside a grant
     period and in excess of actual costs. Read full report.

     The state of Iowa did not report program income of $1,290,424, earned from crop leases on land
     obtained and maintained with FWS grant funds. Read full report.

     The state of Vermont could not substantiate costs of $29,120 for payments made to another state
     agency, and it did not report program income of $242,919. The income was generated for the sale
     of timber on lands operated and maintained with FWS grant funds. In addition, DOI bartered with
     farmers to leave crops unharvested in exchange for permission to farm on lands maintained with
     FWS grant funds, the value of which should also have been reported as program income.
     Read full report.




24                                                               October 2004 Semiannual Report to the Congress
                                                                                 Appendix One

Summary of Audit and Related Activities
From April 1 Through September 30, 2004

                                           Audits Performed by:
                                                        Other Federal Auditors
                                                          (With Review and
                                                              Processing
                                        OIG Staff           by OIG Staff)

                                 Internal, Grant, and    Contract and Grant
                                   Contract Audits             Audits             Total


Reports Issued To

Department/Office of                        8                     0                8
the Secretary

Fish and Wildlife                           12                    0                12
and Parks

Indian Affairs                              1                     0                1
Insular Affairs                             3                     0                3
Land and Minerals                           1                     0                1
Management

Water and Science                           3                     0                3
Other Federal Agencies                      0                     0                0


Total Reports Issued                        28                    0                28




October 2004 Semiannual Report to the Congress                                            25
Appendix Two

Reports Issued or Processed During the 6-M
                                         Month Period
Ended September 30, 2004
This listing includes all internal reports (internal audits, advisory reports, assessments, and
evaluations), contract and grant audits, and single audit reports issued during the 6-month period
ended September 30, 2004. It provides report number, title, issue date, and monetary amounts
identified in each report (* Funds To Be Put To Better Use, ** Questioned Cost, *** Unsupported
Cost, and **** Lost or Potential Additional Revenues).


 Internal Reports

Bureau of Indian Affairs

Q-IN-BIA-0098-2003          Bureau of Indian Affairs Contract With the Navajo Nation for
                            Social Services (09/30/2004)

Bureau of Reclamation

W-IN-BOR-0016-2004          Central Valley Project Contract Renewal Process (08/12/2004)

C-IN-BOR-0067-2002          Bureau of Reclamation, Denver Office, Contract Administration
                            (09/30/2004)

Multi-Office

E-IN-MOA-0070-2004          District of Columbia Water and Sewer Authority Payments for January 1,
                            2004, Through March 31, 2004 (05/03/2004)

E-EV-MOA-0068-2002          Evaluation of Conduct and Discipline (06/24/2004)

E-EV-MOA-0073-2004          Follow-up Evaluation of the Department of the Interior’s Policies and
                            Procedures Related to the Rural Development Act of 1972 (07/28/2004)

A-IN-MOA-0099-2004          Independent Accountants’ Report Application of Agreed-Upon Procedures
                            for the Department of the Interior and the Social Security Administration
                            (09/17/2004)

E-IN-MOA-0087-2004          District of Columbia Water and Sewer Authority Payments for April 1,
                            2004, Through June 30, 2004 (08/09/2004)



 26                                                           October 2004 Semiannual Report to the Congress
                                                                                          Appendix Two
C-EV-MOA-0094-2003                Department of the Interior Contracting for Temporary
                                  and Critical Staffing Needs (09/30/2004)

National Park Service

V-IN-NPS-0004-2003                Concession Management and Fee Collection Operations, Virgin Islands
                                  National Park, National Park Service (05/17/2004) ****$90,395

P-IN-NPS-0105-2003                National Park Service Management of Selected Grants in Hawaii
                                  (07/30/2004)

Office of the Secretary

W-EV-OSS-0075-2004                Review of 12 Procurements Placed Under General Services
                                  Administration Federal Supply Schedules 70 and 871 by the National
                                  Business Center (07/16/2004)

A-EV-OSS-0094-2004                Information System Security Over Systems and Applications Used by the
                                  National Business Center to Provide Services to Non-Department of the
                                  Interior Clients (08/23/2004)

U.S. Fish and Wildlife Service

E-FL-FWS-0009-2004-D              Verification Report on the Status of Recommendations Contained in the
                                  Audit Report Entitled, “Miscellaneous Receipts, U.S. Fish and Wildlife
                                  Service” (06/30/2004)

Virgin Islands

V-IN-VIS-0104-2003-M              Use of Official Credit Cards, Government of the Virgin Islands
                                  (08/27/2004) **$189,990 ***$339,990

V-EV-VIS-0097-2004                Verification of Jewelry Quota Data for Calendar Year 2004 for DBC
                                  Corporation (08/26/2004)

V-IN-VIS-0069-2004                Audit Report on “Financial Arrangements Between the Government of
                                  the Virgin Islands and Financial Institutions” (09/30/2004)




October 2004 Semiannual Report to the Congress                                                          27
Appendix Two

 Contract and Grant Audits

Bureau of Land Management

C-CX-BLM-0044-2003           Costs Claimed by Sletten Construction of Wyoming, Inc., Under Contract
                             No. NDC000037 to Build the National Historic Trails Interpretive Center
                             (05/19/2004) **$256,526

Bureau of Reclamation

E-CX-BOR-0032-2004           Costs Billed by Veridian Corporation, Information Solutions Division,
                             During the Fiscal Years Ended September 30, 2002 and 2003, Under
                             General Services Administration Contract No. GS35F0038J, Bureau of
                             Reclamation Delivery Order No. 02PE810774 (09/16/2004) **$2,309
                             ***$49,332

National Park Service

C-CX-NPS-0027-2004           Costs Claimed by Remediation Constructors, Inc., to Construct an Access
                             Road and Parking Area at Sequoia Kings National Park in California,
                             Contract No. 1443C8000010903 (07/08/2004)


U.S. Fish and Wildlife Service

R-GR-FWS-0030-2003           U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                             the State of Wyoming, Game and Fish Department, From July 1, 2000,
                             Through June 30, 2002 (04/22/2004)

R-GR-FWS-0026-2003           U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                             the State of South Dakota, Department of Game, Fish and Parks, From
                             July 1, 2001, Through June 30, 2003 (04/22/2004) **$42,089

R-GR-FWS-0019-2003           U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                             the State of Connecticut, Department of Environmental Protection,
                             Bureau of Natural Resources, From July 1, 2000, Through June 30, 2002
                             (05/06/2004) *$240,277

R-GR-FWS-0025-2003           U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                             the State of New York, Department of Environmental Conservation,
                             Division of Fish, Wildlife and Marine Resource, From April 1, 2000,
                             Through March 31, 2002 (05/06/2004) *$980,616 **$668,504
28                                                             October 2004 Semiannual Report to the Congress
                                                                                         Appendix Two

R-GR-FWS-0017-2003                U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                                  the State of Alaska, Department of Fish and Game, From July 1, 2000,
                                  Through June 30, 2002 (07/09/2004) **$13,006

R-GR-FWS-0028-2003                U.S. Fish and Wildlife Service Assistance Grants Administered by the
                                  State of Utah, Department of Natural Resources, Division of Wildlife
                                  Resources, From July 1, 2001, Through June 30, 2003 (07/09/2004)

R-GR-FWS-0022-2003                U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                                  the State of Iowa, Department of Natural Resources, From July 1, 2000,
                                  Through June 30, 2002 (07/29/2004) *$1,290,424

R-GR-FWS-0005-2004                U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                                  the State of Vermont, Agency of Natural Resources, Department of Fish
                                  and Wildlife, From July 1, 2001, Through June 30, 2003 (09/16/2004)
                                  *$242,919 ***$29,120




October 2004 Semiannual Report to the Congress                                                           29
Appendix Three

Monetary Impact of Audit Activities
From April 1 Through September 30, 2004



                        Questioned    Funds To Be Put To
        Activity          Costs*          Better Use          Revenues                   Total


Bureau of Indian            0                  0                   0                       0
Affairs

Bureau of Land          $256,526               0                   0                  $256,526
Management

Bureau of                $51,641               0                   0                   $51,641
Reclamation

Fish and Wildlife       $752,719          $2,754,236               0                 $3,506,955
Service

Insular Areas:**        $529,980               0                   0                  $529,980
  U.S. Virgin Islands

Multi-O
      Office                0                  0                   0                       0

National Park               0                  0               $90,395                 $90,395
Service


Total                   $1,590,866        $2,754,236           $90,395               $4,435,497




* Unsupported costs are included in questioned costs.
** Includes monetary impact of non-ffederal funds.




30                                                         October 2004 Semiannual Report to the Congress
                                                                                        Appendix Four

Non-F
    Federal Funding Included in Monetary Impact of
Audit Activities During the 6-M
                              Month Period
That Ended September 30, 2004

V-IN-VIS-0104-2003                “Use of Government Credit Cards, Government of the Virgin Islands,”
                                  dated August 27, 2004. The report identified $529,980 as monetary
                                  impact consisting of $189,990 questioned costs ($120,890 federal and
                                  $69,100 Insular) and $339,990 unsupported costs ($125,160 federal and
                                  $214,830 Insular).




October 2004 Semiannual Report to the Congress                                                        31
Appendix Five

Audit Resolution Activities
Table I: Inspector General Audit Reports With Questioned Costs*

                                   Number of Reports    Questioned Costs Unsupported Costs

A. For which no management                 33             $10,036,780                 $592,463
decision had been made by the
commencement of the reporting
period.1

B. Which were issued during the            7               $1,590,866                 $418,442
reporting period.

          Total (A+B)                      40             $11,627,666                $1,010,905

C. For which a management                  5               $1,555,334                 $326,197
decision was made during the
reporting period.

      (i) Dollar value of                  4               $1,423,117                 $326,197
      recommendations that
      were agreed to by
      management.
      (ii) Dollar value of                 1                $132,217                       0
      recommendations that
      were not agreed to by
      management.

D. For which no management                 36             $10,072,312                 $684,708
decision has been made by the
end of the reporting period.2
E. For which no management                 29              $8,481,446                 $266,266
decision was made within 6
months of issuance.
* Unsupported costs are included in questioned costs.

1 Beginning balance differs from April 2004 Semiannual Report ending balance by $33,291,420
(decrease) because of deletion of single audit report amounts and a corrective adjustment.
2 Number of reports does not calculate from above because one report included costs in which a
management decision was made and other costs in which a decision still has not been made.

32                                                         October 2004 Semiannual Report to the Congress
                                                                              Appendix Five

Audit Resolution Activities
Table II: Inspector General Audit Reports
With Recommendations That Funds Be Put To Better Use

                                                                  Number of       Dollar
                                                                   Reports        Value

A. For which no management decision has been made by the             18       $140,703,581
commencement of the reporting period. 1
B. Which were issued during the reporting period.                    4         $2,754,236

                               Total (A+B)                           22       $143,457,817

C. For which a management decision was made during the               5         $77,558,005
reporting period.

        (i) Dollar value of recommendations that were agreed to      3         $26,552,417
        by management.

        (ii) Dollar value of recommendations that were not           2         $51,005,588
        agreed to by management.

D. For which no management decision had been made by the             17        $65,899,812
end of the reporting period.

E. For which no management decision was made within 6                13        $63,145,576
months of issuance.




1 Beginning balance differs from April 2004 Semiannual Report ending balance by $3,281,569
(increase) because of corrective adjustments.




October 2004 Semiannual Report to the Congress                                               33
Appendix Five

Audit Resolution Activities
Table III: Inspector General Audit Reports
With Lost or Potential Additional Revenues

                                                                  Number of                Dollar
                                                                   Reports                 Value

A. For which no management decision has been made by the               12             $234,144,977
commencement of the reporting period. 1
B. Which were issued during the reporting period.                       1                 $90,395

                         Total (A+B)                                   13             $234,235,372

C. For which a management decision was made during the                  5              $22,469,732
reporting period.

       (i) Dollar value of recommendations that were agreed to          5              $22,469,732
       by management.

       (ii) Dollar value of recommendations that were not               0                     0
       agreed to by management

D. For which no management decision had been made by the                8             $211,765,640
end of the reporting period.

E. For which no management decision was made within 6                   8             $211,765,640
months of issuance.




1 Beginning balance differs from April 2004 Semiannual Report ending balance by $1,700,000
(increase) because of a corrective adjustment.




34                                                          October 2004 Semiannual Report to the Congress
                                                                                         Appendix Six

Summary of Audit Reports More Than 6 Months Old
Pending Management Decisions
April 1 Through September 30, 2004
This listing includes a summary of internal, contract (except preawards), grant, and single audit
reports that were more than 6 months old on September 30, 2004, and still pending a
management decision. It provides the report number, title, issue date, number of unresolved
recommendations, and unresolved amount of monetary benefits identified in the audit report.

 Internal Audits

Multi-Office Audit

2001-I-0297                       Audit Report on the Stripper Oil Well Property Royalty Rate Reduction
                                  Program (03/30/2001); 2 Recommendations Unresolved

 Contract and Grant Audits

Bureau of Indian Affairs

1994-E-0784                       Audit of Costs Claimed by Diversified Business Technologies
                                  Corporation, Albuquerque, NM (06/10/1994);
                                  1 Recommendation; $825,170 Unresolved
                                  (Circumstances beyond the Bureau’s control have delayed resolution of
                                  the costs.)

1994-E-0919                       Audit of Costs Claimed by Diversified Technologies Corporation,
                                  Albuquerque, NM (06/30/1994); 1 Recommendation; $247,414
                                  Unresolved
                                  (Circumstances beyond the Bureau’s control have delayed resolution of
                                  the costs.)

Bureau of Land Management

W-IN-BLM-0009-2003                Audit of Oil and Gas Permitting Process, Bureau of Land Management
                                  (02/13/2004); 1 Recommendation Unresolved




October 2004 Semiannual Report to the Congress                                                            35
Appendix Six

Bureau of Reclamation

2001-E-0229             Costs Claimed By Sloat and Associates, Inc., Under BOR Contract No.
                        1425-5-CC-40-18140 (02/14/2001); 1 Recommendation;
                        $157,964 Unresolved

National Park Service

2000-E-0289             J.C.M. Control Systems, Inc., Costs Billed During Fiscal Years
                        1997, 1998, and 1999 Under NPS Contract No. 1443CX300094906
                        (03/24/2000); 1 Recommendation; $83,125 Unresolved
                        (Circumstances beyond the Bureau’s control have delayed resolution of
                        the costs.)

2000-E-0607             Harrison and Palmer, Inc., Costs Billed Under National Park Service
                        Contract No. 1443CX00094906 (08/08/2000); 1 Recommendation;
                        $52,703 Unresolved
                        (Circumstances beyond the Bureau’s control have delayed resolution of
                        the costs.)

2000-E-0706             Southern Insulation, Inc. (09/29/2000); 1 Recommendation;
                        $86,262 Unresolved
                        (Circumstances beyond the Bureau’s control have delayed resolution of
                        the costs.)

2001-E-0035             Callas Contractors, Inc. (11/07/2000); 1 Recommendation;
                        $16,425 Unresolved
                        (Circumstances beyond the Bureau’s control have delayed resolution of
                        the costs.)

2001-E-0036             Final Costs Audit of Capitol Mechanical Construction (11/07/2000);
                        1 Recommendation; $98,194 Unresolved
                        (Circumstances beyond the Bureau’s control have delayed resolution of
                        the costs.)

2001-E-0244             Audit of Costs Billed by EMS Consultants From May 1, 1996, Through
                        June 1, 1999 (02/27/2001); 1 Recommendation; $327,330 Unresolved
                        (Circumstances beyond the Bureau’s control have delayed resolution of
                        the costs.)




36                                                       October 2004 Semiannual Report to the Congress
                                                                                         Appendix Six

2001-E-0336                       Audit of Subcontract Overhead Costs Billed by JCM Control Systems,
                                  Inc. (04/23/2001); 1 Recommendation; $109,865 Unresolved
                                  (Circumstances beyond the Bureau’s control have delayed resolution of
                                  the costs.)

2002-E-0002                       Community Central Energy Corporation, Amounts Billed Under National
                                  Park Service Contract No. CX-4000-0-0023 From October 1, 1993,
                                  Through September 30, 2000 (12/19/2001); 1 Recommendation;
                                  $779,274 Unresolved

A-IN-NPS-0074-2003                Improvements Needed in Managing Information Technology System
                                  Security, National Park Service (03/29/2004); 1 Recommendation
                                  Unresolved

Office of the Secretary

2002-E-0001                       Los Alamos Technical Associates, Incorporated, Termination Settlement
                                  Proposal Under Office of the Special Trustee Contract No.
                                  NBCA0C00009 (01/17/2002); 1 Recommendation; $30,031 Unresolved

Office of the Special Trustee for American Indians

2002-E-0003                       Ktech Corporation, Termination Settlement Proposal Under Office of the
                                  Special Trustee Contract No. NBCA0C00009 (01/17/2002);
                                  1 Recommendation; $28,381 Unresolved

2003-E-0005                       Audit of Final Contract Costs for Chavarria, Dunne, & Lamey LLC
                                  Under Office of the Special Trustee Contract No. CMK00133396
                                  (11/12/2002); 1 Recommendation; $108,405 Unresolved

U.S. Fish and Wildlife Service

2003-E-0001                       Costs Claimed by the U.S. Virgin Islands, Department of Planning and
                                  Natural Resources, Division of Fish and Wildlife, Under Federal Aid
                                  Grants From the U.S. Fish and Wildlife Service From October 1, 1996,
                                  Through September 30, 1998 (10/07/2002); 10 Recommendations;
                                  $212,322 Unresolved




October 2004 Semiannual Report to the Congress                                                            37
Appendix Six

2003-E-0022              Costs Claimed by the State of Missouri, Department of Conservation,
                         Under Federal Aid Grants From the U.S. Fish and Wildlife Service From
                         July 1, 1997 Through June 30, 1999 (06/11/2003); 8 Recommendations
                         Unresolved

R-GR-FWS-0021-2003       Costs Claimed by the State of Indiana, Department of Natural Resources,
                         Under Federal Assistance Grants From the U.S. Fish and Wildlife Service
                         From July 1, 2000, Through June 30, 2002 (12/22/2003);
                         1 Recommendation Unresolved

R-GR-FWS-0023-2003       Costs Claimed by the State of Louisiana, Department of Wildlife and
                         Fisheries, Under Federal Assistance Grants From the U.S. Fish and
                         Wildlife Service From July 1, 2000, Through June 30, 2002 (12/22/2003);
                         17 Recommendations; $167,463 Unresolved

R-GR-FWS-0027-2003       Costs Claimed by the Tennessee Wildlife Resources Agency, Under
                         Federal Assistance Grants From the U.S. Fish and Wildlife Service From
                         July 1, 2000, Through June 30, 2002 (01/08/2004); 14 Recommendations;
                         $515,956 Unresolved

R-GR-FWS-0020-2003       U.S. Fish and Wildlife Service Federal Assistance Grants Administered
                         by the State of Florida Fish and Wildlife Conservation Commission From
                         July 1, 2000, Through June 30, 2002 (02/25/2004); 6 Recommendations;
                         $179,574 Unresolved

R-GR-FWS-0029-2003       U.S. Fish and Wildlife Service Federal Assistance Grants Administered
                         by the State of Washington, Department of Fish and Wildlife From
                         July 1, 2000, Through June 30, 2002 (03/04/2004); 2 Recommendations
                         Unresolved

U.S. Geological Survey

1993-E-0339              Closing Statement, TGS Technology, Inc. (12/22/1992);
                         1 Recommendation; $786,501 Unresolved




38                                                        October 2004 Semiannual Report to the Congress
                                                                                         Appendix Seven

Summary of Internal Audit and Evaluation Reports
More Than 6 Months Old Pending Corrective Action
April 1 Through September 30, 2004
This is a listing of internal audit and evaluation reports with management decisions more than 6
months old for which corrective action has not been completed. It provides report number, title,
issue date, and the number of recommendations without final corrective action. These audits and
evaluations continue to be monitored by the Focus Leader for Management Control and Audit
Follow-up, Assistant Secretary -- Policy, Management and Budget, for completion of corrective
action.

Bureau of Indian Affairs

2003-I-0055                       Evaluation of the Bureau of Indian Affairs Process to Approve Tribal
                                  Gaming Revenue Allocation Plans (06/11/03), 3 Recommendations

W-FL-BIA-0047-2002                School Construction Program, Bureau of Indian Affairs (02/24/2004),
                                  6 Recommendations

E-IN-BIA-0069-2003                Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial
                                  Statements for Fiscal Years 2003 and 2002 (02/25/2004),
                                  18 Recommendations

C-IN-BIA-0014-2004                Improvements Needed in the Bureau of Indian Affairs Process for
                                  Conducting Background Investigations of Indian Education Employees
                                  (03/05/2004), 2 Recommendations

C-IN-BIA-0007-2003                Bureau of Indian Affairs, Office of Indian Education Programs, Central
                                  Office Management of Administrative Funds (03/30/2004),
                                  1 Recommendation

Bureau of Land Management

1992-I-0828                       Onshore Geophysical Exploration Fees, Bureau of Land Management
                                  (05/26/1992), 2 Recommendations

1995-I-0379                       Follow-up of Recommendations Relating to Bureau of Land Management
                                  User Charges for Mineral-Related Document Processing (01/23/1995),
                                  2 Recommendations

1995-I-0747                       Right-Of-Way Grants, Bureau of Land Management (03/31/1995),
                                  6 Recommendations
October 2004 Semiannual Report to the Congress                                                             39
Appendix Seven
1996-I-1267             Inspection and Enforcement Program and Selected Related Activities
                        (09/20/1996), 1 Recommendation

1997-I-1300             Issuance of Mineral Patents, Bureau of Land Management and Office of
                        the Solicitor (09/30/1997), 1 Recommendation

1999-I-0677             Rangelands Improvement Program, Bureau of Land Management
                        (07/28/1999), 1 Recommendation

1999-I-0808             Cultural Resource Management, Bureau of Land Management
                        (09/03/1999), 2 Recommendations

2001-I-0421             Audit of Bonding for Oil and Gas Wells on Indian Trust Lands
                        (09/24/2001), 1 Recommendation

C-IN-BLM-0076-2003      Independent Auditors’ Report on the Bureau of Land Management’s
                        Financial Statements for Fiscal Years 2003 and 2002 (12/10/2003),
                        11 Recommendations

C-IN-BLM-0021-2004      Management Issues Identified During the Audit of the Bureau of Land
                        Management’s Fiscal Year 2003 Financial Statements (12/30/2003),
                        2 Recommendations

W-IN-BLM-0009-2003      Audit of Oil and Gas Permitting Process, Bureau of Land Management
                        (02/13/2004), 6 Recommendations

Bureau of Reclamation

2000-I-0376             Concessions Managed by the Bureau of Reclamation (05/08/2000),
                        1 Recommendation

2002-I-0004             Improvements Needed in Security Management of Information
                        Technology Systems Supporting Energy and Water Operations
                        (11/16/2001), 2 Recommendations

W-FL-BOR-0121-2002      Municipal and Industrial Water Transfers, Bureau of Reclamation
                        (11/26/2003), 3 Recommendations

C-IN-BOR-0077-2003      Independent Auditors’ Report on the Bureau of Reclamation’s Financial
                        Statements for Fiscal Years 2003 and 2002 (12/08/2003),
                        2 Recommendations




40                                                       October 2004 Semiannual Report to the Congress
                                                                                      Appendix Seven
Departmental Offices

2003-I-0056                   Department of the Interior Working Capital Fund (06/16/2003),
                              9 Recommendations

E-IN-DMO-0068-2003            Independent Auditors’ Report on the Departmental Offices’ Financial
                              Statements for Fiscal Years 2003 and 2002 (12/19/2003),
`                             18 Recommendations

E-IN-DMO-0034-2004            Management Issues Identified During the Audit of the Departmental
                              Offices’ Fiscal Year 2003 Financial Statements (01/21/2004),
                              7 Recommendations

Minerals Management Service

1996-I-1255                   Selected Activities of the Royalty Management System (09/30/1996),
                              2 Recommendations

2003-I-0061                   Audit of Oversight Performed by the Minerals Management Service of
                              Non-Federal Auditors (08/22/2003), 1 Recommendation

E-IN-MMS-0066-2003            Independent Auditors’ Report on the Minerals Management Service’s
                              Financial Statements for Fiscal Years 2003 and 2002 (12/09/2003),
                              5 Recommendations

Multi-Office Audit

2000-I-0300                   Supporting Documentation for Operators Participating in the Stripper Oil
                              Well Property Royalty Rate Reduction Program (03/27/2000),
                              1 Recommendation

2003-I-0060                   Follow-up Evaluation Policies and Procedures Related to the Rural
                              Development Act of 1972 (08/20/2003), 1 Recommendation

X-IN-MOA-0080-2003            Independent Auditors’ Report on the U.S. Department of the Interior’s
                              Fiscal Year 2003 Annual Report on Performance and Accountability
                              (11/28/2003), 39 Recommendations

C-IN-MOA-0042-2003            Fleet Management Operations U.S. Department of the Interior
                              (02/09/2004), 5 Recommendations

X-IN-MOA-0043-2004                Management Issues Identified During the Audit of the Department of the
                                  Interior’s Fiscal Year 2003 Financial Statements (02/12/2004),
                                  19 Recommendations
October 2004 Semiannual Report to the Congress                                                         41
Appendix Seven
National Park Service

1998-I-0406                   Followup of Recommendations Concerning Utility Rates Imposed by the
                              National Park Service (04/15/1998), 5 Recommendations

2002-I-0045                   Recreational Fee Demonstration Program, National Park Service and
                              Bureau of Land Management (08/19/2002), 4 Recommendations

2003-I-0013                   Yosemite National Park’s Museum Collection, National Park Service
                              (03/31/2003), 2 Recommendations

E-IN-NPS-0067-2003            Independent Auditors’ Report on the National Park Service’s Financial
                              Statements for Fiscal Years 2003 and 2002 (12/22/2003),
                              10 Recommendations

E-IN-NPS-0037-2004            Management Issues Identified During the Audit of the National Park
                              Service’s Fiscal Year 2003 Financial Statements (01/07/2004),
                              15 Recommendations

A-IN-NPS-0074-2003            Improvements Needed in Managing Information Technology System
                              Security, National Park Service (03/29/2004), 12 Recommendations

Office of Special Trustee for American Indians

1997-I-1167                   Judgment Funds Awarded to the Turtle Mountain Band of Chippewa
                              Indians (09/22/1997), 1 Recommendation

1997-I-1168                   Judgment Funds Awarded to the Navajo Nation (09/22/1997),
                              1 Recommendation

1997-I-1169                   Judgment Funds Awarded to the Papago Tribe of Arizona (09/15/1997),
                              2 Recommendations

2001-I-0411                   Independent Auditors’ Report on the Financial Statement for Fiscal Years
                              2000 and 1999 for the Office of Special Trustee for American Indians
                              Tribal and Other Special Trust Funds and Individual Indian Monies Trust
                              Funds Managed by the Office of Trust Funds Management (06/24/2001),
                              8 Recommendations

2002-I-0027                   Independent Auditors’ Report on the Office of Special Trustee for
                              American Indians Tribal and Other Trust Funds and Individual Indian
                              Monies Trust Funds Financial Statements for Fiscal Years 2001 and 2000
                              (04/25/2002), 3 Recommendations

42                                                              October 2004 Semiannual Report to the Congress
                                                                                         Appendix Seven
Q-IN-OST-0075-2003                Independent Auditors’ Report on the Tribal and Other Trust Funds and
                                  Individual Indian Monies Trust Funds Financial Statements for Fiscal
                                  Years 2003 and 2002 Managed by the Office of the Special Trustee for
                                  American Indians (12/09/2003), 3 Recommendations

Q-IN-OST-0025-2004                Management Issues Identified During the Audit of the Office of the
                                  Special Trustee for American Indians’ Fiscal Year 2003 Financial
                                  Statements (12/22/2003), 3 Recommendations

Office of Surface Mining Reclamation and Enforcement

2003-I-0074                       Review of the Abandoned Mine Land Program, Office of Surface Mining
                                  Reclamation and Enforcement (09/30/2003), 1 Recommendation

C-IN-OSM-0024-2004                Management Issues Identified During the Audit of the Office of Surface
                                  Mining Reclamation and Enforcement’s Fiscal Year 2003 Financial
                                  Statements (12/30/2003), 3 Recommendations

U.S. Fish and Wildlife Service

1997-I-1305                       Automated Law Enforcement System, U.S. Fish and Wildlife Service
                                  (09/30/1997), 2 Recommendations

2000-I-0050                       Miscellaneous Receipts, U.S. Fish and Wildlife Service (11/09/1999),
                                  4 Recommendations

2003-I-0045                       Reporting and Recovery Planning and Implementation for Endangered
                                  Species (04/22/2003), 1 Recommendation

C-IN-FWS-0078-2003                Independent Auditors’ Report on the U.S. Fish and Wildlife Service’s
                                  Financial Statements for Fiscal Years 2003 and 2002 (12/22/2003),
                                  8 Recommendations

C-IN-FWS-0023-2004                Management Issues Identified During the Audit of the U.S. Fish and
                                  Wildlife Service’s Fiscal Year 2003 Financial Statements (12/23/2003),
                                  1 Recommendation




October 2004 Semiannual Report to the Congress                                                             43
Appendix Seven

U.S. Geological Survey

2003-I-0042              Improvements Needed in Managing Security of Mission-Critical
                         Information Technology Systems (03/31/2003), 2 Recommendations

E-IN-GSV-0070-2003       Independent Auditors’ Report on the U.S. Geological Survey’s Balance
                         Sheet for Fiscal Year 2003 (12/09/2003), 1 Recommendation




44                                                        October 2004 Semiannual Report to the Congress
                                                                                  Appendix Eight

Summary of Insular Area Reports
With Open Recommendations More Than 6 Months Old
Note: These Insular Area reports contain recommendations made specifically to Insular Area
governors and other Insular Area officials, who do not report to the Secretary and are not subject
to the policy, guidance, and administrative oversight established by the Assistant Secretary for
Policy, Management, and Budget.


 Internal Audits

American Samoa

2002-I-0003 Assessment and Collection of Taxes, American Samoa Government (11/15/2001);
            15 Recommendations; $7,148,769

Guam

2002-I-0016 Bond Services, Trust Fund Activities, Guam Economic Development Authority,
            Government of Guam (03/28/2002); 4 Recommendations; $68,018,988

U.S. Virgin Islands

1993-I-0572 Supply and Equipment Management, Department of Education, Government of the
            Virgin Islands (02/19/1993); 8 Recommendations; $310,000

1997-I-0243 Workmen’s Compensation Program, Government of the Virgin Islands
            (12/30/1996); 1 Recommendation

1998-I-0384 Hurricane-Related Contracting, Department of Education, Government of the Virgin
            Islands (03/31/1998); 2 Recommendations; $5,418

1998-I-0468 Followup of Recommendations Relating to the Bureau of Corrections, Department of
            Justice, Government of the Virgin Islands (05/29/1998); 1 Recommendation

1998-I-0670 Interfund Loans and Federal Grant Balances, Government of the Virgin Islands
            (09/09/1998); 10 Recommendations; $120,000,000

1999-I-0365 Followup of Recommendations Relating to Personnel Management Practices, Division
            of Personnel, Government of the Virgin Islands (03/26/1999);
            3 Recommendations; $24,300,000


October 2004 Semiannual Report to the Congress                                                   45
Appendix Eight

2001-I-0107 Administrative Functions, Legislature of the Virgin Islands, Government of the Virgin
            Islands (12/29/2000); 8 Recommendations; $1,320,293

2002-I-0009 Virgin Islands Housing Finance Authority, Government of the Virgin Islands
            (12/31/2001); 1 Recommendation

2002-I-0042 Federal Highway Grants, Department of Public Works, Government of the Virgin Islands
            (08/30/2002); 1 Recommendation

2003-I-0002 Public Finance Authority, Government of the Virgin Islands (11/22/2002);
            9 Recommendations; $30,891,687

2003-I-0003 Compliance With the Memorandum of Understanding Between the Governor of the
            Virgin Islands and the Secretary of the Interior (01/06/2003); 6 Recommendations

2003-I-0067 Emergency Services Surcharge Collections by Innovative Telephone Corporation on
            Behalf of the Government of the Virgin Islands (09/26/2003); 1 Recommendation;
            $256,380




46                                                            October 2004 Semiannual Report to the Congress
                                                                                         Appendix Nine

Office of Investigations Program Integrity Assessments Issued
During the 6-MMonth Period That Ended September 30, 2004
2004-I-0056                       “Neither Safe Nor Secure: An Assessment of Indian Country Detention
                                  Facilities” (September 2004)

X-EV-BIA-0114-2003                Interim Report – Indian Country Detention Facilities (April 2004)




October 2004 Semiannual Report to the Congress                                                          47
Appendix Ten

Cross References to the Inspector General Act
Inspector General Act of 1978, as amended                                                          Page

Section 4(a)(2)   Review of Legislation and Regulations                                            N/A*

Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                                   1-24

Section 5(a)(2)   Recommendations for Corrective Action With Respect to Significant                1-24
                  Problems, Abuses, and Deficiencies

Section 5(a)(3)   Significant Recommendations From Agency’s Previous Reports on                    35-38
                  Which Corrective Action Has Not Been Completed

Section 5(a)(4)   Matters Referred to Prosecutive Authorities and Resulting Convictions             ii-iii

Section 5(a)(5)   Matters Reported to the Head of the Agency                                        N/A

Section 5(a)(6)   List of Audit Reports Issued During the Reporting Period                         26-29

Section 5(a)(7)   Summary of Significant Reports                                                   1-24

Section 5(a)(8)   Statistical Table – Questioned Costs                                               30

Section 5(a)(9)   Statistical Table – Recommendations That Funds Be Put to Better Use                30

Section 5(a)(10) Summary of Audit Reports Issued Before the Commencement of the                    35-38
                 Reporting Period for Which No Management Decision Has Been Made

Section 5(a)(11) Significant Revised Management Decisions Made During                               N/A
                 the Reporting Period

Section 5(a)(12) Significant Management Decisions With Which the                                    N/A
                 Inspector General Is in Disagreement

Section 5(a)(13) Information Described Under Section 05(b) of the Federal Financial                 N/A
                 Management Improvement Act of 1996



*N/A = Not applicable this reporting period.


48                                                             October 2004 Semiannual Report to the Congress
                                                                                   General Information


 To make a request for publications, contact OIG:



       By mail:                                             By phone:




                                                                        (202) 208-4
                                                                                  4599
       U.S. Department of the Interior
       Office of Inspector General
       1849 C St. NW
       Mail Stop 5341, MIB
       Washington, DC 20240


                                                                           By Internet:
      By fax:
                     (202) 208-4
                               4998




                                                                        www.oig.doi.gov




Photo Credits
Cover photos: Crow Creek Detention Facility, South Dakota; and Trunk Bay, St. John, Virgin Islands
National Park, both courtesy OIG.

All photos courtesy DOI, its bureaus and offices, and Microsoft Clip Art Gallery.

October 2004 Semiannual Report to the Congress                                                     49
